HHS/OIG, Audit -"Review of Pension Costs Claimed for Medicare Reimbursement by Pennsylvania Blue Shield for Fiscal
Years 1992 Through
1997,"(A-07-04-00171)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by Pennsylvania Blue Shield for Fiscal Years 1992 Through
1997," (A-07-04-00171)
November 5, 2004
Complete
Text of Report is available in PDF format (953 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine the allowability of pension costs claimed for Medicare reimbursement for
Fiscal Years (FY) 1992 through 1997.  We found that Pennsylvania Blue Shield (PBS) did not incur nor claim pension
costs for FYs 1992 and 1993.  However, PBS underclaimed allowable Medicare pension costs for FYs 1994 through 1997.  During
this period, the allowable Medicare pension costs were $8,271,992.  However, PBS claimed pension costs of $4,978,167
for Medicare reimbursement.  The underclaim occurred because PBS did not correctly identify its Medicare segment in
accordance with its Medicare contract.  As a result, PBS did not claim $3,293,825 of allowable pension costs.  We
recommended that PBS revise its Final Administrative Cost Proposals (FACP) to claim allowable CAS pension costs of $3,293,825
for FY 1994 through 1997.